 DEPARTMENT OF HOMELAND SECURITY

  Ofﬁce of Inspector General


  Independent Review of the U.S. Immigration
 and Customs Enforcement (ICE) Reporting of
         FY 2004 Drug Control Funds




       Ofﬁce of Audits
OIG-05-15          March 2005
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Ofﬁce of Inspector General/MAIL STOP
2600, Attention: Ofﬁce of Investigations - Hotline, 245 Murray Drive, SW, Building
410, Washington, DC 20528, or email DHSOIGHOTLINE@dhs.gov. The OIG seeks to
protect the identity of each writer and caller.
